<html>
<title> - HEARING ON THE DEPARTMENT OF VETERANS AFFAIRS VOCATIONAL REHABILITATION AND EMPLOYMENT PROGRAM Wednesday, April 20, 2005 U.S. House of Representatives, Subcommittee on Economic Opportunity, Committee on Veterans� Affairs, Washington, D.C. The Subcommittee met, pursuant to notice, at 2:05 p.m., in Room 334, Cannon House Office Building, Hon. John Boozman [Chairman of the Subcommittee] presiding. Present: Representatives Boozman, Herseth, Brown-Waite, Hooley, Baker, Evans, and Nunes. Opening Statement of Chairman Boozman Mr. Boozman. Good afternoon. The first hearing of the Economic Opportunity Subcommittee will come to order. Before we begin, I would like to introduce the members of the Subcommittee and share my thoughts on what the Subcommittee should be about. The Ranking Member is Ms. Stephanie Herseth, who represents the whole state</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
HEARING ON THE DEPARTMENT OF VETERANS AFFAIRS VOCATIONAL 
REHABILITATION AND EMPLOYMENT PROGRAM

Wednesday, April 20, 2005

U.S. House of Representatives,     
Subcommittee on Economic Opportunity,
Committee on Veterans� Affairs,
Washington, D.C.

 The Subcommittee met, pursuant to notice, at 2:05 p.m., in Room 334,
 Cannon House Office Building, Hon. John Boozman [Chairman of the
 Subcommittee] presiding.
 Present:  Representatives Boozman, Herseth, Brown-Waite, Hooley, 
 Baker, Evans, and Nunes.

Opening Statement of Chairman Boozman

    Mr. Boozman. Good afternoon.  The first hearing of the Economic
    Opportunity Subcommittee will come to order.
    Before we begin, I would like to introduce the members of the
    Subcommittee and share my thoughts on what the Subcommittee should 
    be about.
    The Ranking Member is Ms. Stephanie Herseth, who represents the 
    whole state -- I emphasize the whole state -- of South Dakota.  
    She�s been     a member of the Veterans Committee since winning a 
    special election, and we are very, very pleased to have the 
    opportunity to work with her as Ranking Member and I truly look 
    forward to working with her in a very bipartisan way so that we 
    can do some good things for veterans.
    On this side of the aisle, Ms. Ginny Brown-Waite, from Florida�s 
    5th District, is the Vice Chair, and certainly she has proven to 
    be a true advocate for veterans, and we are very glad to have her 
    aboard and welcome her counsel.
    And I am especially pleased that the Ranking Member of the full
    committee, Lane Evans, will be joining us.  Certainly Mr. Evans 
    has done a tremendous job for veterans� issues and his voice is 
    always a valuable addition to our work.
    Mr. Richard Baker, from the 6th District in Louisiana, as the 
    Chairman of the Financial Services Subcommittee on Capital Markets 
    brings a great understanding of how VA loan guarantee programs 
    relate to real estate and financial markets.
    Ms. Darlene Hooley comes to us from the 5th District of Oregon.  
    She brings a broad range of expertise in education, health care, 
    and finance to the Subcommittee, and, again, I appreciate her past 
    work on behalf of veterans.
    Our final member is a second term member from California�s 21st 
    District, Devin Nunes. He was raised on a family farm and is a 
    man who knows what it is to grow up with dirt under his 
    fingernails and the value of those who are close to this great 
    nation�s soil.  So, again, we welcome him aboard and his 
    commitment to veterans.
    The Subcommittee title says what we are going to be about -- 
    improving the economic opportunities for veterans. While the 
    Economic Opportunity Subcommittee has jurisdiction over several 
    other programs and will not ignore them, I intend to focus on 
    the programs run by the Vocational Rehabilitation and Employment 
    Service, and the Veterans Employment and Training Service.
    That means we�re going to look very closely, with the help of 
    GAO, at the programs designed to put veterans to work or achieve 
    a maximum degree of independent living.  It also means that VA 
    and DOL must gather the data necessary for them and us to 
    determine the effectiveness of existing programs and to justify 
    any new start I strongly believe the Voc Rehab and Employment 
    program should be the crown jewel of VA programs.  As such, it 
    is vital that VA leadership place increased emphasis on the 
    program�s performance, especially in relation to its integration 
    with the Department of Labor�s programs managed by the Veterans 
    Employment and Training Service.  I note the presence of the word 
    "employment" in the title of both programs, and if we accomplish 
    nothing else, I want to see the two so closely tied as to be 
    transparent to the disabled veteran.
    Labor�s VETS has a special obligation to our veterans.  We have 
    vested them with the responsibility of finding jobs for the 
    unemployed and disabled veterans.  We�ve got many questions about 
    how well VETS is doing in that respect, and we will have an 
    oversight hearing to determine their performance in the near 
    future, as well as the performance of the Homeless Veterans 
    Reintegration Program, a grant program designed to get homeless 
    vets off the street and get them ready to reenter the workforce.
    The Uniformed Services Employment and Reemployment Rights Act 
    (USERRA) and the Servicemembers Civil Relief Act also fall under 
    the jurisdiction of the Subcommittee.  I want to make sure that 
    these important laws continue to protect the rights and 
    responsibilities of our returning servicemembers, and we will do 
    just that.
    The GI Bill is perhaps the most famous piece of veterans� 
    legislation, and we look forward to ensuring it meets the goals 
    of preparing veterans for a lifetime of productive citizenship. 
    Finally, the Loan Guaranty program has a distinguished history 
    of improving home ownership for veterans. VA does a good job 
    running the program, and my goal is -- I think our goal is to 
    ensure that no one tarnishes that record.
    Additionally, I want to look very closely at programs that make 
    it easier for disabled veterans to not only buy a home, but also 
    live comfortably in that home.
    I now recognize the Ranking Member, Ms. Herseth, for any remarks 
    she has.

Opening Statement of Hon. Stephanie Herseth

    Ms. Herseth. Thank you, and good afternoon, Mr. Chairman.  I�m 
    very pleased to be here with you today as we commence the first 
    hearing for this newly established Subcommittee on Economic 
    Opportunity.  I firmly believe that this Subcommittee will 
    provide a valuable forum to discuss, examine and develop federal 
    policy that will be a catalyst to enhanced economic and 
    financial conditions for our servicemembers, veterans and 
    military families.
    Indeed, I can think of no other segment of society that has 
    sacrificed so much and requested so little in return throughout 
    this nation�s history, including and especially through the past 
    few years, than our troops, veterans and military families.
    Mr. Chairman, before we begin, I want to congratulate you on 
    your leadership of this Subcommittee.  I look forward to working 
    with you in a productive and bipartisan manner as we proceed 
    through this 109th Congress. I believe that we as well as everyone 
    in the room can agree that the vocational rehabilitation and 
    preparation for employment and reemployment of disabled veterans 
    should be a top priority for the Department of Veterans� Affairs.
    On that note, let me welcome everyone here today. I�m very 
    interested in hearing the witnesses� testimony and appreciate your
    willingness to participate and assist us in our congressional 
    oversight duties.  I understand that the VA�s Vocational 
    Rehabilitation and Employment program has undergone serious 
    programmatic changes and continues to implement certain 
    recommendations from the Secretary�s VR&E Task Force Report.  I am 
    pleased that the VA has taken this Task Force Report seriously, 
    and I look forward to monitoring the program�s next steps.
    Clearly, we have an obligation to improve VR&E services, and I 
    hope the VA continues to make the necessary efforts, including 
    resource investments, to continue the progress that has been made. 
    Specifically, I�m interested in examining the following areas 
    during today�s hearing on the VR&E program: Accessibility of VR&E 
    services in rural areas; Seamless and accelerated transition 
    services, especially for returning members of the National Guard 
    and Reserve forces; The related issue of DoD and VA cooperation 
    with respect to VR&E; Data integrity; and Coordination of 
    employment counseling services with other federal job training 
    entities, as well as state vocational rehabilitation services. 
    Mr. Chairman, vocational rehabilitation and independent living 
    services are vitally important.  We and our colleagues on the 
    Subcommittee all recognize this and are committed to making a 
    difference in the lives of veterans and their families. Given 
    the current military situation overseas and the current economic 
    situation in many states, this hearing is quite appropriate and 
    timely for a number of reasons.  First, just as in South Dakota 
    and in Arkansas and other states, we have a number of National 
    Guard units that have been deployed, are waiting to deploy, have 
    returned home from their initial deployments.  But at the same 
    time, vocational rehabilitation services and opportunities remain 
    limited as we do not want to do anything to neglect the needs of 
    veterans of past wars and military conflicts.
    I strongly believe that a top quality VR&E program can assist in 
    addressing these types of concerns with the needs of a new 
    generation of veterans as well as those that have served in the 
    past.  Moreover, in my opinion, it�s the least that a grateful 
    nation should provide to our disabled veterans.
    Mr. Chairman, thank you again for holding this hearing and for 
    your leadership on the committee.  I look forward to working with 
    you on this very important subject.
    Mr. Boozman. Thank you for those remarks.  Let�s go ahead and get 
    started then.  When we set up the hearing, we thought it would be 
    good to hear from veterans who had been through the voc rehab 
    program.  We asked Sergeant Sean Lewis to be with us today, and 
    he�s currently at Walter Reed going through rehab there, and he�s 
    unable to make it today. 
    So, again, like I say, hopefully, maybe at some other time we�ll be 
    able to get him involved. And we certainly want to wish him a lot 
    of luck as he goes forward.
    But we have Mr. Joseph Forney, a small businessman from California, 
    who went through the program several years ago.  And then also, we 
    have Mr. Carl Blake from the Paralyzed Veterans of America, who 
    will  provide us with the results of an informal survey that he did
    on our behalf. So, welcome.  Why don�t you go ahead, Mr. Forney.

STATEMENTS OF JOSEPH K. FORNEY, FORMER VOCA-
  TIONAL REHABILITATION PARTICIPANT; AND CARL
  BLAKE, ASSOCIATE LEGISLATIVE DIRECTOR, PARA-
  LYZED VETERANS OF AMERICA

STATEMENT OF JOSEPH K. FORNEY
    Mr. Forney. Good afternoon, Mr. Chairman, Ranking Member, other 
    members of the committee.  I appreciate it. It�s a privilege and 
    an honor to be here today. I was thinking of Sergeant Lewis unable 
    to make it is one of the prime examples of how hard it is to get 
    a traditional academic education. When I spoke to Mr. Brink about 
    my testimony, and when he invited me, it made me reflect on how 
    much fun it was to be in college, and how after 14 short years I 
    got my four-year degree. 
    A lot of the problem was because of my medical condition, which 
    would cause me to start and stop school. It�s hard to be tethered 
    to a time clock and a schedule when you have ongoing and changing 
    medical conditions, especially with persons who have had severe 
    disabilities or injuries. That was part of the reason, plus the 
    fact that I enjoyed college so much, that they had to pretty much 
    kick me out. But it took so long to obtain a degree. 
    Oftentimes with persons with disabilities, severe disabilities,
    employment is very hard to get.  Employers are not looking to take 
    on extra risks or to help to ease the fit of a person with a severe 
    disability into their company.  It just doesn�t work.  The joke is 
    besides my sparking personality, is I�m too unemployable to be 
    employed and I had to be self-employed.
    I have nothing but good things to say about the VA and their voc 
    rehab program and helping me to attend college. I just believe as 
    an entrepreneur, if that option would have been made available to 
    me, I think we could have saved a lot of time and money for both of 
    us. As a matter of fact, in the last two years of school, I was 
    actively running my business in California. We�ve had a state law 
    for disabled veteran participation since 1990.  And I was running 
    the same small business that I run today, and also attending 
    college. Because my degree to be a P.E. teacher was not something 
    that I was looking to actually engage in.  It was a way to just 
    rehabilitate myself back into life.  And when I started it in 
    1980, of course I had every intention of getting out and getting 
    right to it, but ongoing medical treatments, as I mentioned before, 
    would cause me to start and stop.
    I think that if the VA was to look at entrepreneurship as a form of 
    rehabilitation and help severely disabled veterans who are going to 
    have a harder time finding employment because of their service- 
    connected disabilities, and then tie that into some sort of actual 
    on-the-job training or some sort of contractual basis, if the 
    individual wanted to sell widgets and the VA had a need for widgets,
    if upon graduation of an entrepreneurial course they were to be 
    considered for providing those widgets as part of their 
    rehabilitation, I think that would be a good start to help build a 
    base from which they could then go on to the public sector and with 
    the -- I�ve been trained in buy low, sell high, and I provide these 
    widgets to the VA.  I�d like to sell them to you as a private 
    corporation, I think that that would be an excellent way to help 
    expedite the matter. And there again, not that I didn�t enjoy 14 
    years of college, the fact that if there was something that was 
    more streamlined and geared for those who can�t be on a time clock, 
    as Sergeant Lewis.  We all know how difficult it is to try to get 
    over the smallest restriction. But then to try to get over 
    something as difficult as an amputation or some sort of paralysis, 
    formal education and unemployment is just not a good -- 
    entrepreneurial opportunities with the government might be a 
    better way to do that. I appreciate the committee�s time.  If there�s 
    any questions I can answer, I�d be more than grateful.
 
[The statement of Mr. Forney appears on p. 31]
 
    Mr. Boozman. Thank you very much.
    Mr. Blake?
    Before we go on, real quick, Mr. Evans has joined us, and 
    Mr. Evans is the Ranking Member, and he�s somebody that I�ve 
    really enjoyed working with.  I�ve been on the committee since 
    I�ve been in Congress, and somebody that I�ve really enjoyed 
    working with Mr. Evans, and I know that nobody in Congress has a 
    greater heart for veterans than Lane
    Evans, so.
    Mr. Evans. Well, maybe I should just shut up and sit down. That�s 
    a very complimentary introduction.  
    So, let me yield back my time at this point.
    Mr. Boozman. Thank you very much.
    Mr. Blake.

STATEMENT OF CARL BLAKE

    Mr. Blake. Chairman Boozman, members of the Subcommittee, PVA would 
    like to thank you for the opportunity to testify today on the VA�s 
    Vocational Rehabilitation and Employment program.  Having submitted 
    my full statement for the record, I will limit my comments to the 
    informal survey which you referred to of selected newly injured 
    spinal cord injured veterans.
    As many of you know, PVA is an organization that represents veterans 
    who have suffered a spinal cord injury or disease.  Our members rely 
    on the services provided by VR&E, particularly the independent 
    living program, which helps them learn activities of daily living 
    prior to even trying to gain employment once again.
    Because many of the recommendations of the Task Force Report 
    released in March of last year focused on the internal workings of 
    VR&E or on cultural changes within the service, it is difficult to 
    judge how the program has done at implementing some of the 
    recommendations made by the Task Force.
    Furthermore, PVA is concerned that many of our members have not had 
    the access to the new information being put out by VA.  Often, 
    severely disabled veterans needing DTAP services, the Disabled 
    Transition Assistance Program services, fall through the cracks, 
    especially spinal cord injured veterans who may already be getting 
    health care and rehabilitation at a VA medical center while still 
    on active duty.
    Because these individuals are no longer located on or near a 
    military installation, they are often forgotten in the transition 
    assistance process.  I can offer myself as an example of that, 
    albeit a few years ago.
    In order to get a better idea of how the VR&E program is serving 
    veterans, PVA conducted the informal survey which I mentioned. The 
    veterans that we interviewed, ten of them to be exact, represent 
    approximately 20 percent of the total number of veterans who have 
    incurred spinal cord injuries within the last two years.  I�d like 
    to say that that�s a positive thing, because we are one of the few 
    organizations where we really don�t encourage membership in our 
    organization, because the requirements are pretty drastic. 
    It must be noted that the first contact that most of these veterans 
    had with VR&E was prior to the release of the Task Force report last 
    year.  We asked them a series of questions, which I outlined in my 
    full statement.  I won�t go over them again.
    Each of the veterans contacted had initially come in contact -- or 
    had initially come through a military medical facility prior to 
    moving to a VA medical center with spinal cord injury centers there. 
    Of the ten soldiers, four were Operation Enduring Freedom and Iraqi 
    Freedom veterans, and six were injured in the line of duty while at 
    their home stations. 
    One of the four individuals who served in OEF and OIF was a 
    National Guard member.  And all of the soldiers who had been 
    interviewed had already received a service-connected rating from 
    the VA. 
    Three of the veterans interviewed were currently enrolled in the 
    VR&E program, but none of the veterans have actually completed the 
    program as of yet.
    The other seven members were aware of the services provided by 
    VR&E but had chose not to participate at this time.  There are 
    various reasons as to -- or conclusions as to why that might be.  
    I won�t go into that. We can discuss that if you�d like over 
    questions.
    The four OEF/OIF soldiers actually found out about the VR&E program 
    through programs conducted at the Walter Reed Army Medical Center. 
    The six veterans who were injured at their home stations were 
    transferred from the medical facilities at their installation to a 
    VA spinal cord injury center that was nearest to their home or one 
    that they chose.  None of them were informed about the VR&E service 
    at the military medical facility.  However, all of them explained 
    that  they had been approached once they got to a VA medical center 
    by a representative of VR&E.
    And none of these six veterans participated in a TAP or a DTAP 
    program. This remains a serious concern, as I outline in my 
    statement, of PVA.
    Two of the most recently injured veterans have actually seen the 
    new video that we were briefed on by the VA last week that they�ve 
    put out that details what the VR&E service offers.  It focuses on 
    the new Five-Track employment process that was one of the major 
    recommendations of the Task Force report last year. They stated 
    that it was a very informative video and that it opened their 
    minds to possibilities that they had not considered, specifically 
    as Mr. Forney mentioned, self-employment.I don�t think it�s 
    something that crosses most young soldiers� minds right offhand 
    after they�ve been injured.  And that opens up a whole new avenue 
    of long-term stability in their life and an employment avenue 
    that they can take.
    The veterans who chose not to participate in the VR&E program 
    were given information on what to do if and when they decided to 
    enroll. And a couple of the veterans said that they were told that 
    VA staff would follow up at a later date.  Each of the soldiers 
    who are currently enrolled in the VR&E program said that their 
    experience was positive, and that they discussed what they had 
    hoped to achieve with VR&E staff and they also had that discussion 
    with myself.
    All three of the veterans entered in the program prior to the 
    implementation of the new Five-Track employment process, and they 
    indicated they were not familiar with this process that was 
    recommended by the Task Force.  When I explained it to them, 
    though, they did, as I mentioned, express a lot of interest in it. 
    Two of those individuals were currently enrolled in college courses 
    and -- I see my time is up, Mr. Chairman. Could I have another 
    minute or so?
    Mr. Boozman. Yes, very much.
    Mr. Blake. The one remaining veteran who was enrolled in VR&E is 
    currently enrolled in the independent living program, which is 
    closer to PVA�s heart because of the activities that they focus on. 
    He explained that the independent living program staff has been very 
    professional with him and worked to overcome the significant 
    challenges that he faced.  He was a C-6 quadriplegic, so you can 
    imagine the things that he has to face day to day. He even 
    expressed a desire to seek employment through self-employment 
    following completion of the independent living program, which is 
    something that we�ve been trying to encourage more of our members 
    to do because of the significant challenges that the severely 
    disabled face in trying to gain employment.
    Although our survey does not provide clear evidence of what changes 
    the VA has made since the release of the VR&E Task Force report, it 
    does show that the VA is making I would say a good faith effort to 
    address the needs of these soldiers.
    However, we still have concerns about the voc rehab program, as I 
    outlined in the independent budget for fiscal year �06 and as I 
    outline in my full statement.  Many of these concerns were outlined 
    by the Task Force report last year, and they made recommendations 
    to address many of these deficiencies.
    We feel that the VA must continue to move forward to implement the 
    recommendations made by the Task Force report. Ultimately, that can 
    only create a better VR&E service.
    We look forward to working with you, Mr. Chairman, and the members 
    of the Subcommittee to ensure that the VA pursues meaningful 
    reforms to the VR&E service.  And I�d be happy to answer any 
    questions that you might have.
    Thank you.
 
[The statement of Mr. Blake appears on p. 32]
 
    Mr. Boozman. Thank you.  Mr. Forney, you expressed your dismay 
    about wanting to kind of follow a different track; that you were 
    actually kind of pushed into another one.
    Your idea of the entrepreneurship training, how do you see that as 
    working, specifically?  If you could set the program up, what 
    needs to be there that you were lacking in that regard 
    specifically? 
    Mr. Forney. With any good program, you would want to be able to 
    identify what the outcome is:  Self-employment through 
    entrepreneurial means.  And then with a contractor, some sort of
    stabilizing base at the end of a predetermined time to see -- a 
    filtering mechanism.
    Entrepreneurship is not for everyone.  Out of all the veterans I 
    talk to every day that say that the government has to buy 3 percent, 
    I remind them, they don�t have to do anything. 
    If we could have a good filtering process to determine who is best 
    suited for entrepreneurship, and then with a contractual tie-in at 
    the end of graduation.  It doesn�t take long to learn to buy low, 
    sell high. But all the experience in the world, if there�s no payoff 
    at the end, some direct reward for learning how to run and establish 
    a  small business, it would never fly.
    With all the things that the VA and the Department of Defense buys, 
    it would be easy to find areas where they need to have certain goods 
    and services.  And who better to provide those goods and services 
    than the former employees of Department of Defense and veterans who 
    are going through entrepreneurial training from the VA? 
    So it would be a good filtering process to find out who not just 
    wants to but has the means and wherewithal to be in entrepreneurship.
     I remember at the roundtable you said you had a business with your 
    brother.  And you understand. You�re only working half days from 7 
    to 7.  You�re the last one to get paid, and nothing�s guaranteed. 
    But if there was that stabilizing factor of a contract at the end to 
    provide that good or service, I think that would help to establish 
    the returning veteran, and then they could go look for stuff in the 
    private sector using that base contract as a starting point.
    Mr. Boozman. Mr. Blake, tell me, you know, as a result of your study,
    what specific recommendations do you think that we need to  go 
    forward? 
    Mr. Blake. Well, Mr. Chairman, I would have to say that the one 
    downside to our survey is that the majority of the veterans that we 
    interviewed went through VR&E or had contact with VR&E prior to the 
    release of the study.  I think the important thing is, we have to 
    start to identify individuals who have been injured just say in the 
    last year or so that would be more likely to have come in contact 
    with that program.
    The downside to the survey that we conducted was the vast majority 
    of the members of our organization that I interviewed were injured
    either in Afghanistan in 2002 or were injured in 2003.  The OIF/OEF 
    veterans who we know that we have as our organization, part of our 
    organization, were injured during the initial stages of fighting in 
    Iraq.
    The other problem that I think we face is, there�s been a lot of 
    discussion about the wonderful things going on at Walter Reed and
    Bethesda, and I can�t help but second that. But I think what gets 
    lost in this is that there are veterans at home stations who are not 
    currently deployed overseas who are assigned to their units and who 
    are not -- just doing training or getting injured, and they don�t 
    have the same kind of access to the services.
    They do have some and, you know, the TAP and the DTAP programs have 
    come under a lot of scrutiny in the last couple of years.  In fact I 
    know you all I believe were supposed to have a hearing on it in the 
    near future on the VETS service. And I think we have to make sure 
    that it�s not lost that these veterans at their home stations should 
    be getting the same services.
    We fully support the idea that the veterans who are in Walter Reed 
    and Bethesda and Brooke and some other facilities are getting these 
    services, but they�re like the center of the universe.  Every -- 
    all of the top notch services being directed there, and we can�t 
    lose sight of the other locations that are around this country 
    where veterans are at -- or soldiers are at every day.  They should 
    be getting the same services, and I think it�s inconsistent, 
    particularly when it comes to the TAP program and even more so the 
    DTAP program.
    As I mentioned with our members, the problem that our members face 
    in getting DTAP services is, almost as soon as they are injured, 
    get a spinal cord injury, they�re moved to a military medical 
    facility. 
    But almost immediately they�re identified for going to a VA spinal 
    cord injury center, because it�s just a fact that the Department of 
    Defense doesn�t have the capability to provide the type of rehab 
    services that the VA SCI centers have.
    And so they want to move them as quickly as they can to ensure that 
    they get quality rehab right away.  And somewhere in that transfer 
    process, some of the important steps get lost, like going to DTAP 
    programs and some of the other services that all of the men and 
    women going through the most obvious places right now are getting.
    Mr. Boozman. Ms. Herseth?
    Ms. Herseth. Thank you.  Mr. Forney, I don�t have any questions, 
    just appreciate your testimony, because I think it always helps to 
    hear the specific examples and personal experiences that give us a 
    better appreciation for the need for flexibility, whether that�s 
    flexibility in the types of programs through the formal education 
    that�s offered, or beyond that in the type of structure that 
    you�ve  described today that provide each individual the flexibility 
    to see which skill set and interest and motivation is best suited 
    for each individual service-connected disabled veteran, for what 
    is the best to pursue and what opportunities should be there as 
    you�ve described within both agencies, with the VA and the DoD.  
    So I appreciate hearing from you today.
    And, Mr. Blake, I recently had a meeting with some folks in South 
    Dakota and Sioux Falls at our regional office,and we had folks from 
    North Dakota there as well, and the state president of South 
    Dakota�s PVA, Joel Neimeyer was there, and a few other folks that 
    had benefitted and participated in the vocational rehabilitation 
    program and echoed the point that you made that in the informal 
    survey, those that got enrolled had some pretty positive experiences 
    by and large within the program, and they couldn�t say enough 
    positive things about the folks that were administering the programs 
    in our region. So to come back to the whole issue of outreach, 
    early intervention, how do we reach the folks that you�ve described, 
    not only those that are active duty and deployed, but then those 
    that perhaps are injured at their home installations?  Then we have 
    the National Guard and Reserve component here as well.
    Do you know -- and maybe PVA has been involved in each state 
    National Guard and Reserve force has been handling this a little 
    bit differently, but do you see the need for the VA to reach out 
    on the regional level even more with each of the National Guard 
    and Reserve units or with the officers in each state to make sure,
     especially with this group of folks that are transitioning back 
    to civilian life have the type of information that you�ve 
    described?
    Mr. Blake. Yes, ma�am.  I think the Guard and Reserve has taken a 
    lot of attention, and those are a lot of the folks who are really 
    getting lost in this. But the one thing to remember is, most if not 
    all of the National Guard and Reserve units, when they come back 
    from their deployment, they�re coming through a major military 
    installation. They�re not coming -- they don�t necessarily go 
    directly home.  And this is the perfect opportunity to get that
     information to them.
    And sometimes it�s a struggle to decide, do we want to get these 
    soldiers home right away?  Because that�s the foremost thing in 
    their mind.  Or do we want to make sure that they get all of the
     information that they need and all of their proper forms are 
    filled out and that they understand everything that�s available 
    to them before they�re let go?
    And that�s an ongoing struggle that we face.  But I think in the 
    interest of erring in favor of the long-term benefit of these 
    soldiers, we can�t let them get away before they have everything 
    that they need to know or we�ve inundated them with all the 
    information that they need. 
    Ms. Herseth. Well, I couldn�t agree more.  And perhaps the 
    Chairman has heard this from some of the men and women he�s 
    talked to in his district. The folks that are coming back after 
    those lengthy deployments, and they�re coming back through a 
    major military installation like you said, whether it�s Fort Sill 
    or Fort Carson or wherever, they just want to get through that 
    process as quickly as possible. They haven�t seen their families 
    yet.  You know, they�re there for that certain stage of 
    deactivation before they get home. And they�re getting a lot of
     information at once.
    And my concern is that, especially with staffing resources, 
    whether -- that it really be focused not only administering the 
    programs, but the outreach, so that these people don�t, once they 
    get home, once they start that transition back with their families 
    and what their needs may be, that it�s not just a one shot time 
    of providing information but rather being proactive and in part, 
    you know, learning from the lessons of how we treated some 
    Vietnam-era veterans, that we do what we can through the VA, 
    through organizations like yours, to be much more proactive but 
    dedicate the resources and the investments in doing that.
    Mr. Blake. One of the points, ma�am, that I got out of it was a 
    number of them mentioned that they were told that there would be 
    follow-up.
    And I think that that can be lost. The VA needs to understand that 
    these soldiers are expecting it, and they can�t shirk that 
    responsibility. I was watching the Senate committee�s hearing they 
    had yesterday, and they had a couple of the newly injured soldiers 
    that testified before the Senate Committee on Veterans Affairs, and 
    both of them brought up an interesting point that continuous 
    follow-up needs to be done withthese soldiers, even though they 
    might decline VR&E service initially, there�s so many things going 
    through their mind right now and so many things that they�re 
    focused on that that might not be at the forefront. And so the VA 
    has to continue to follow up with these soldiers and not
    let them get away from them without absolute certainty that that�s 
    not what they want to do. We don�t want to run the risk of putting 
    these young men and women out there, and then they face 
    possibilities with mental health or substance abuse that results 
    from not being able to get employment, or they face homelessness. I 
    think the follow-up needs to be there so that we can stop -- head 
    off some of these problems before they occur.  Mr. Boozman. We�ve 
    been joined by Ms. Ginny Brown-Waite from Florida,and she is the 
    Vice Chair of our committee. It�s really been great to get to work 
    with her, and we certainly appreciate her counsel Ms. Brown-Waite. 
    Thank you very much, Mr. Chairman.  I know how dedicated you are to 
    this cause. I have a large number of veterans who -- a large number 
    of military who were called up through National Guard units.  And 
    one of the things that I found, and maybe this isn�t nationwide 
    and this may be part of the problem, and I�m sure either one of 
    you gentlemen can help me, is that with the National Guard units 
    that that follow-up and the information is also supplied through 
    the family coordinators back home -- the wives, the mothers who 
    are very involved in family support. 
    Is that not being done nationwide? Is that part of the problem? 
    Because I can tell you that the mothers and the wives are very 
    interested in making sure that every possible benefit that the 
    veteran is entitled to, that they -- if applicable, that they 
    take advantage of. So I�ll just be quiet and ask for your counsel 
    and advice. Is it not being done nationwide?  Mr. Blake. Well, 
    I would, Ms. Brown-Waite, I would offer up that that would be the 
    perfect question for another member of my staff who happens to be 
    deployed right now to Afghanistan with the National Guard, and he 
    could probably perfectly answer that question as to whether that 
    information is being put out through the family readiness groups 
    and the coordinators. 
    Having only served on active duty, I know when we were deployed, 
    a lot of information was pumped out through family readiness 
    groups.  But that shouldn�t be the primary avenue.  It all falls 
    back on making sure that the soldiers themselves get the 
    information. I haven�t heard stories about whether it�s 
    inconsistent or not.  I�d be happy to ask via the wonders of the 
    Internet my colleague who is overseas, or when he comes back, I�m 
    sure he could give you a perfect answer to that question. 
    Ms. Brown-Waite. Mr. Forney?
    Mr. Forney. I wouldn�t know about how they�re followed up with the 
    reserves, but here again with the veteran being the principal 
    breadwinner, an elongated educational course that could go on for 
    years as opposed to a shortened entrepreneurial, this is the 
    perfect example. 
    If you have a family to care for, to go through a long educational 
    process to end up with a degree to hope to work for a big company 
    somewhere down the line when the family is counting on you, I 
    think, again, this is another good argument for self-employment, 
    because we could start that and have a completion date and then 
    self-employment much sooner than years of -- and it is always the 
    wives and the daughters that try to -- because when you get out, 
    you just want to just go home.  I -- when you said that.  But then 
    when the reality sets in about I have to do something, now it�s 
    hard to make that choice. 
    Ms. Brown-Waite. Thank you. 
    Mr. Boozman. Mr. Evans? 
    Mr. Evans. Thank you very much.  You�re a good person to follow, 
    because you bring up so many good points to us today.  And one of 
    them is in 1970, �71, people getting out of the Marine Corps, 
    33 percent had less than honorable discharges.  They weren�t 
    getting any support from home or the community.  They weren�t in 
    a position to do so many things like we think they should do, so 
    people who have gone and defended this country in time of war, 
    should get better help. 
    It�s a problem we face today.  And of course in the �70s, it was 
    the voter employment programs referred to the old OJ training 
    period, OJT. It didn�t help them because the veteran was 
    unqualified and wouldn�t be able to deal with the stress that 
    they�d been through, never had any business background, never 
    had a family that had that kind of situation. 
    So how do we correct that?  You talked about entrepreneurial 
    decisions. But, you know, I think we get caught up in the old 
    rhetoric that the  emergency -- I�m trying to think of the �70s, 
    the Emergency Veterans Employment. Already just in the title of 
    that bill there�s something that I think denigrates veterans 
    unintentionally, inflicted, self-inflicted perhaps.  But how do 
    we get to the bottom of these things and make them work?
    Mr. Forney. Again, that time element is so critical. If we could 
    get to the veteran with the severe disability, help them to see 
    something, a light at the end of the tunnel, much quicker than 
    the traditional education higher degree, but have something to 
    keep them, because of that disconnect. 
    And I forgot all about how the mind starts to play tricks on you. 
    The substance abuse, the homeless issue. I forgot all about that. 
    We�ve got to keep these guys, these men and women busy and have 
    them something to shoot for as opposed to what seems to be the 
    brushoff.  And if it was tied into once you get the career moving, 
    the house, the spouse, you get it all, and that American dream 
    that they�ve sacrificed for. 
    You�re exactly right.  The time element is critical. If we could 
    get --and who better to buy things from disabled veterans than the 
    largest federal employer, the Department of Veterans Affairs? 
    Mr. Evans. Anybody else? 
    Okay.  Thank you, Mr. Chairman, appreciate your time and your 
    interest. We�ll continue to look at this issue as time goes on. 
    And I do like the fact that you�re being flexible.  What happened 
    to us, the generation, we�re not going to be able to follow 
    through and help everybody across the board.  But the ones that 
    are saving, that can be saved.
    It seems to me that when you have a ten-year delimiting date, you 
    hurt those people more than any other program I can think, because 
    that�s for their educational benefits, and then suddenly you don�t 
    have a plan.  I�m not trying to personalize this, but I know so 
    many people that come back home, they had no plans, you know, been
    discharged with less than honorable discharges.  And it was a 
    tough time, the whole era. 
    And I think we should be glad that they were there when we did it, 
    but we ought to be giving us the help that we need when it�s our 
    turn to start those small businesses, those mom-and-pop operations 
    and so forth. 
    So thank you for your testimony.  I appreciate it. 
    Mr. Boozman. Yes.  Thank you very much.  One of the things I kicked 
    around with staff yesterday was maybe the committee, and I need to 
    talk to Ms. Herseth and her staff about this, but maybe us 
    identifying a group, a small group, and not just the Walter Reed,
    Bethesda, but as you said, the scattered around, maybe just 
    identify a very small group and then communicating periodically as 
    they start this process and then that way, that would be a way for 
    us to keep up besides all the other mechanisms that we have to see 
    the pitfalls, you know, that they�re going through, and to help us 
    better understand.
    You know -- nobody understands, you do in the sense of going 
    through this.  But I think that might be something that helps us 
    better understand as they run into the barriers that get erected.  
    So again that�s something that we�ll kick around and see if 
    that�s workable or not. But I think any help that we can get in 
    understanding what�s going on, how we can improve, we really would 
    be very grateful. 
    So thank you very much for your testimony.  
    Mr. Blake. Thank you, sir. 
    Mr. Boozman. Our second panel is comprised of from the Government 
    Accountability Office, the GAO, Ms. Cynthia Bascetta, Director of 
    Veterans Health and Benefits Issues, accompanied by Ms. Irene Chu, 
    Assistant Director of Veterans Affairs and Military Health Care 
    Issues. Ms. Bascetta, get yourself some water and get after it.


STATEMENT OF CYNTHIA A. BASCETTA, DIRECTOR OF 
  VETERANS HEALTH AND BENEFITS ISSUES, GOVERN- 
  MENT ACCOUNTABILITY OFFICE; ACCOMPANIED BY 
  IRENE CHU, ASSISTANT DIRECTOR, VETERANS� 
  AFFAIRS AND MILITARY HEALTH CARE ISSUES 

    Ms. Bascetta. Thank you, Mr. Chairman and members of the 
    Subcommittee. I appreciate your invitation for me to speak to you 
    today about GAO�s views on the VR&E program. The individual 
    experiences of servicemembers from Iraq provide compelling reasons 
    to expedite assistance to help them overcome their combat-related 
    injuries.  But from a societal point of view, given the projected 
    slowdown in the growth of the nation�s labor force, it is of 
    paramount importance that we support people with disabilities, 
    including veterans, to maximize their ability to participate in 
    the paid labor force. Our work is based on GAO reports dating back 
    to 1984 when we first expressed concerns about VR&E�s focus on 
    education rather than employment.  Notably, 20 years later, the 
    task force highlighted the need to establish an employment-driven 
    process and to give VR&E services priority within VBA, which has 
    been dominated by claims processing rather than face-to-face 
    service delivery. The task force also found that VR&E has limited 
    capacity to manage its growing workload and that it needs to 
    redesign its program for the modern employment environment. 
    My written statement provides the details of our broad agreement 
    with the task force�s other findings and recommendations, so I�d 
    like to direct my comments today to the challenges VA faces in 
     transforming VR&E to a program for the 21st Century veteran. 
    First, in accordance with rehabilitation principles, the VA needs 
    to  find ways to provide services as early as possible, 
    particularly for servicemembers newly injured in combat.  Unlike 
    previous wars, battlefield medicine and body armor are saving the 
    lives of more servicemembers, although often at the price of 
    severe disabilities. 
    While technological advances such as new prosthetics are making it 
    possible for some of these disabled servicemembers to return to 
    military occupations, other will transition to veteran status and 
    look for employment in the civilian economy.  Consequently, VR&E 
    has a significant opportunity to assist them in overcoming their 
    impairments and making a smooth transition.But individual 
    differences and uncertainties in the recovery process are 
    inherent challenges in determining the earliest time to begin 
    voc rehab.  And in addition, VA and DoD have not yet reached an 
    agreement for VA to have access to information that both agencies 
    agree is needed to promote servicemembers� recovery and their 
    return to work, either in the military or in the civilian life. 
    Also, VA needs policies and procedures for its staff to follow up 
    with seriously injured servicemembers or veterans once they leave 
    military hospitals.  We reported that some regional offices on 
    their own initiative followed up to remind veterans who may not 
    have been ready for services that they were still eligible for 
    VR&E. For those who might be receptive to VR&E at a later date, 
    policies and procedures from the central office for the regional 
    offices to use in following up would help prevent these 
    servicemembers from falling through the cracks. 
    The second challenge is VR&E�s outmoded information technology 
    systems. Like the task force, we are concerned that VR&E IT 
    systems are not up to the task of producing the information and 
    analyses needed to manage the program, although we are aware that 
    they are working on this issue. For example, many of their 
    outbased locations still use slow and unreliable dial-up 
    connections to access their automated case management system.  
    Moreover, this system can generate only a snapshot of veterans 
    in the program, but cannot now track their progress over time. 
    Managing workload is also complicated because the IT system cannot 
    track the number of veterans who drop out of the program or who 
    interrupt their rehabilitation plans. 
    The third challenge VR&E faces is the development of better 
    results-oriented criteria to measure the long-term effectiveness 
    of its services.  Currently, VR&E still counts veterans as 
    successfully rehabilitated if they maintain gainful employment for 
    60 days. This relatively short-term measure, however, may not 
    accurately predict sustained employment over longer timeframes. 
    In fact, in a 1993 report on state vocational rehabilitation 
    agencies, we found that the 60-day measure may not be rigorous 
    enough because gains in employment and earnings of clients who 
    appear to have been successfully rehabilitated actually faded 
    after about two years.  The task force recommended longer-term 
    measures, and the VSO�s independent budget suggested that VR&E 
    track rehabilitated veterans for at least two years.
    We are pleased to see that VA�s Fiscal Year 2004 Performance and 
    Accountability Report included two long-term, employment-based 
    measures of effectiveness, the percentage of participants employed
    for 90 days and then for 270 days.  We also encouraged VA to 
    continue to work with its federal partners, including the 
    Departments of Labor and Education, to develop better common 
    measures of the effectiveness of voc rehab. This concludes my 
    remarks, and I�d be happy to answer your questions.
 
[The statement of Ms. Bascetta appears on p. 44]

    Mr. Boozman. Thank you very much.  Let me start. As far as levels 
    of cooperation between the voc rehab staffs at the regional 
    offices and the Department of Labor�s network of disabled 
    veterans outreach program specialists and local veterans 
    employment reps in each state,  are you finding that the level 
    of cooperation, is it staying the same? Is it increasing, 
    decreasing?  Ms. Bascetta. We have not looked at that recently, 
    but I could note that the task force report from last year found 
    that they were still not working together very well. And as I�m 
    sure you are aware, this is a long-standing problem. We noted it 
    in our first report on VR&E back in 1984. Some locations, however, 
    according to the task force, do work well together, and they found 
    that one of the problems was that the Department of Labor programs 
    don�t require any standardized processes to work with their VA 
    counterparts.  And as a result, there�s a great deal of 
    inconsistency across the nation.  But in some locations, the task 
    force had noted that different federal agencies were working well
     together.
    We have some broader concerns about VA working well with all its 
    federal partners, including the state vocational rehabilitation 
    agencies.  And I guess I�d just observe that it�s possible that 
    through the development of the common measures, which is in a 
    pretty early stage right now, perhaps this collaboration would 
    improve. 
    Mr. Boozman. Okay.  Thank you.  As a result of the -- you mentioned 
    the task force recommendations -- VA added specialists to the 
    skills mix and services provided by VR&E. I think voc rehab has 
    hired over  50 employment specialists nationwide.  Should the 
    employment specialist be primarily a job finder or VR&E�s link to 
    the  veterans� employment and training services network of 
    disabled veterans outreach program specialists and local 
    veterans employment representatives? 
    Ms. Bascetta. That�s a good question.  I think ultimately what we 
    want to do is get the veteran hooked up with the person who is 
    connected to the employer.  In other words, we really are looking 
    for -- whether it�s in the VR&E service itself, or whether it�s in 
    concert with the DVOPs and the LVERs, while indirect training, 
    resume preparation, job coaching are all fine, it�s really that 
    job contact with an employer that�s needed. 
    And I think they need to sort out once they�ve figured out what 
    their own workload is how they�re situated in the different 
    locations and, you know, after they have a better handle on what 
    the situations are in the local economies that they figure out 
    whether they have the skills in house to make those contacts or 
    whether they should use the DVOPs and LVERs.
    Mr. Boozman. Do you have any idea why the voc rehab grads� 
    performance faded after two years?
    Ms. Bascetta. I would have to go back to that report.  I don�t 
    have the details at the top of my head right now. I think that 
    part of it, though, is simply that oftentimes people with 
    disabilities need to have continuing support.  And I�m pretty 
    certain that in the state vocational rehabilitation agencies, 
    which is what that report was about, follow-up was not part of 
    the program. 
    So to the extent that they might have faced difficulties at 
    certain milestones in their labor force participation and didn�t 
    get the kind of support they needed and didn�t know where to turn 
    to to get it, they would exit employment.
    Mr. Boozman. Thank you.  Ms. Herseth.
    Ms. Herseth. Thank you, and thank you for your testimony.  I�ve 
    got a specific question that is related but slightly different than 
    the Chairman�s as it relates to coordination and collaboration by 
    the VA with other agencies. 
    And the Chairman�s question focused on Department of Labor.  And 
    I�d like to focus a little bit on the Department of Defense, and to 
    share with you an example, and then more as a segue into you 
    addressing this issue and the need for early intervention and 
    the communication between the agencies.
    When I was up at Walter Reed Hospital visiting with a young man 
    from South Dakota, Elk Point, South Dakota, had graduated from 
    West Point last spring, the spring of last year, and then became 
    the head of this battalion in Iraq, was part of the Fallujah 
    campaign, and was severely injured, and was receiving treatment 
    at Walter Reed.  I went there to visit with him, and he was 
    inquiring, since he was going to be going home for Thanksgiving, 
    how he would go about the best route to go about getting a ramp at 
    their home to assist him in what those short-term needs were 
    going to be while he was home before he returned to Walter Reed 
    for another three surgeries. 
    And we were talking with the official that was accompanying us 
    during our trip to Walter Reed, and there was this discussion that 
    took place about the fact that since he was still active duty, 
    that the VA was going to be limited in what they could do perhaps, 
    or there was going to have to be some sort of coordination or some 
    sort of process whereby the VA was dealing with the DoD and the 
    timeframe that that was going to occur.  And so I ended up 
    encouraging his mother to just contact our president with the DAV 
    in Sioux Falls, who could be of some assistance in the short term. 
    But we had another lengthier discussion then just about this 
    transition for those suffering disabilities, that process and that 
    timetable whereby they have to make a decision whether or not 
    they�re going to stay active duty and come under the DoD versus 
    making a decision to leave the service and to then start accessing 
    care and programs from the VA. 
    And so the need for early intervention, in addition to your report 
    and findings of this month, you had a report in January of this 
    year that dealt precisely with this collaboration that�s needed to 
    expedite the services for seriously injured servicemembers. And so 
    in your opinion, has any progress been made on this matter since 
    January?
    Ms. Bascetta. To my knowledge, VA and DoD have still not signed the 
    Memorandum of Understanding that would allow them to share what we 
    view as some of the most basic data that VA would need to do a 
    systematic job in keeping track of servicemembers or servicemembers 
    who transition to veteran status who would need VA�s services and 
    who could benefit from their services.
    But they are still actively working on the MOU.  I hope that, 
    shortly it will be agreed upon, but it has been more than a year. 
    Ms. Herseth. Thanks for sharing that information with us.  In the 
    process of examining and evaluating the VR&E program, has GAO 
    encountered any programmatic issues that may need legislative 
    remedies? Ms. Bascetta. I don�t recall any.  I would like to look 
    back at our reports though and answer more fully for the record. 
    None of our reports recommend legislative remedies, In addition, 
    the task force did not
    make recommendations that required legislative change. 
    Ms. Herseth. Okay.  I appreciate it.  Thank you. 
    Ms. Bascetta. Mm-hmm. 
    Mr. Boozman. Ms. Brown-Waite? 
    Ms. Brown-Waite. Perhaps I should ask this question of the next 
    witness from the VA, but what exactly is the problem?  What are 
    the stumbling blocks on the Memorandum of Agreement between DoD 
    and VA? Ms. Bascetta. To our knowledge, and unfortunately, it has 
    been very difficult to get clear information, primarily from DoD, 
    there are two obstacles that we reported on in January. 
    The first is that DoD was concerned about retention. They were 
    concerned that if the VA approached servicemembers while they were 
    still on active duty status and outreached to them about VA 
    benefits that they might choose to leave the service. 
    The other issue was HIPAA and the Privacy Act, and that was with 
    regard to sharing health information.  So part of what they were 
    trying to do in the MOU was to ask only for names and SSNs and 
    much less on health care information unless they knew that the 
    veteran was going to actually transfer to the VA, in which case 
    they could get that information if the veteran or, you know, 
    still servicemember, signed a release, or they could get the 
    information under continuity of care.
    Mr. Boozman. Mr. Evans?
    Mr. Evans. No questions.
    Mr. Boozman. Thank you all very much for your testimony, and we 
    appreciate your hard work.
    Ms. Bascetta. Thank you.
    Mr. Boozman. Thank you. Our final panel is from the VA and is 
    comprised of Ms. Judy Caden, Director of the Vocational 
    Rehabilitation and Employment Program, and is accompanied by 
    Mr. Jerry Braun, her Deputy Director, and Mr. Michael McLendon, a 
    Deputy Assistant Director for VA Policy, who was a member of the 
    Voc Rehab and Employment Task Force. 
    We welcome you here.  I understand that this is your first time to 
    testify as the head of the voc rehab.  Well, we have something in 
    common.  This is my first -- 
    Ms. Caden. Good.
    Mr. Boozman. -- outing as Chairman of the committee.  So, go ahead,
     proceed.
    Ms. Caden. Great.  Thank you.
    Mr. Boozman. It�s good to have you here.

STATEMENT OF JUDITH CADEN, DIRECTOR, VOCATION-
  AL REHABILITATION AND EMPLOYMENT PROGRAM,
  VETERANS BENEFITS ADMINISTRATION; ACCOMPAN-   
  IED BY JERRY BRAUN, DEPUTY DIRECTOR, AND 
  MICHAEL MCLENDON, DEPUTY ASSISTANT SECRE-
  TARY FOR POLICY

    Ms. Caden. Thank you, and thank you for providing me with this 
    opportunity.  
    I�ll begin by discussing the progress we�ve made on implementing 
    the VR&E Task Force recommendations, and then I�m going to discuss 
    how we�re partnering with DOL and the VETS program, and then 
    finally just give you a summary of the state of the VR&E program 
    today. 
    Fifty-one of the more than 100 recommendations submitted by the 
    Task Force have been implemented, and the single most important 
    recommendation and the cornerstone of the Task Force�s blueprint 
    for redesigning the VR&E program is that of the 5-Track Employment 
    Model.  This improved approach refocuses us, the VR&E program, on 
    the main goal of employment.
    To prepare for national implementation of the 5-Track Employment 
    Model, we have established job resource labs at four of our 
    regional offices, which are piloting the new focus.  A 30-minute 
    video has been developed to provide an orientation and ensure 
    that veterans receive clear, concise and accurate information 
    about the program. 
    Specialized training for the new employment coordinators at the 
    pilot sites has been completed, and we�ve recently purchased a 
    web-based tool to assist in the delivery of effective employment 
    services within those labs.
    This tool will assist veterans to develop their interview, resume
     preparation skills, and it will also help them research the job 
    market in their area, career fields and potential employers.  We 
    expect national deployment of the 5-Track Employment Model to 
    begin early in Fiscal Year 2006.
    The Task Force recommended redesigning VR&E�s central office staff, 
    and central office positions have been created to focus on 
    employment, independent living services, training and outreach 
    activities, contract management, policy development and data 
    collection and analysis.
    The Task Force recommended the continued use of trained 
    professional contract counselors, improved management of contract 
    services, and improve the administration of the Disabled 
    Transition Assistance Program or DTAP.
    We have put in place a contract management training program for 
    field staff that requires annual skills updates and certification, 
    and in January, we distributed to the field stations a quick 
    reference guide called a Quick Book, highlight the VR&E program.  
    And this enables the field staff to present information about the 
    VR&E program to separating servicemembers in an easily understood 
    manner.  And it�s something that they can walk away with.
    To further improve the DTAP briefings, we�ve developed a Powerpoint 
    presentation with an accompanying briefing script.  And so along 
    with the Powerpoint, the script, the Quick Books and the 
    orientation video that I mentioned, will greatly improve the 
    quality and consistency of our outreach briefings for separating 
    servicemembers.
    The Task Force proposed that we improve training and seek 
    partnerships to help us deliver this benefit.  We�ve conducted 
    training for field managers on policy, procedures and data analysis. 
    We have had week-long classes on independent living and self-
    employment.  We have done satellite broadcasts for the field and 
    also for DOL field people on traumatic brain injury, spinal cord 
    injury and PTSD.
    We are actively seeking to partner with a wide variety of 
    organizations.  We�re working with the Council of State 
    Administrators of Vocational Rehabilitation, and we have agreements 
    with Home Depot, YMCA and Helmets to Hard Hats that focus 
    specifically on employment.
    We�re actively participating with other organizations to strengthen 
    our coordination and outreach efforts with the goal of achieving a 
    seamless transition for OIF and OEF veterans.  And we�re also 
    working with our counterparts in VHA, within the VA, to develop and
    issues policies on priority medical care and services for veterans 
    that are participating in the VR&E program.
    We have an ongoing partnership with the Department of Labor. We have 
    VR&E staff in the 57 regional offices and more than 100 outbased 
    offices that work very closely with DOL�s DVOPs and LVERs.  There 
    are currently 71 DVOPs and LVERs co-located in 35 of our regional 
    offices and in 26 of our outbased locations.  And we also have VR&E
    personnel in three of the DOL offices.
    We�ve collaborated with DOL on training for case managers as well 
    as for DVOPs and LVERs.  We�re working on a draft Memorandum of 
    Understanding -- it�s really an updated MOU -- with DOL, and we are 
    meeting with them on a frequent basis to look at what we�re doing 
    now and what we can do in the future together.
    We think our efforts have proven to be steps in the right direction.
    We�ve seen improvements in the quality, accuracy and timeliness of 
    work performed at the field stations. 
    I just have a little bit more.
    Mr. Boozman. No, no.  Go ahead. You can take whatever time you need 
    is fine.
    Ms. Caden. For example, in that area, the average number of days 
that a veteran spends in evaluation and planning status decreased from 
more than 150 days at the end of February �04 to less than 120 days in 
February of 2005. And in that same period, there was an increase in the 
number of veterans successfully leaving the program after completing 
either their employment or their independent living goals. That figure 
was up from 9,636 at the end of February of �04 to close to 12,000 at 
the end of February of 2005. So we think the initiatives we have going 
on and what we have planned will continue to have a positive impact on 
the services we provide.
    Mr. Chairman, that concludes my statement, and I�d be happy to 
respond to any questions you or other members might have.
 
[The statement of Ms. Caden appears on p. 61]
 
    Mr. Boozman. Thank you very much for your testimony, and we really 
do appreciate your hard work.  I know you and your staff are working 
very hard to solve some of these problems.
    I understand recently that you met with a company looking into 
hiring disabled veterans.  Can you tell us a little bit about that?
    Ms. Caden. We did.  In fact, we�ve been approached by a number 
of companies, and it�s proven to be very fruitful, but yesterday we 
met with a company that they specifically run call centers, but 
they�re looking to partner with other companies with other types of 
jobs in managerial positions.
    But what intrigued me and another member of my staff the most was 
for the veterans that we have in our independent living program, that 
 employment right now isn�t feasible, isn�t the right approach, but we 
would hope down the road, when they mentioned that with a call center 
you can do the work at home, that clicked.  And so we�re definitely 
going to look at that and try and pursue that and maybe get some of 
the independent living.
    I think as we heard the gentleman from PVA mention, that that 
would be something that might really benefit some people, and that�s 
a group we really need to concentrate on. So I think it will be really 
helpful in the future.
    Mr. Boozman. The regional office voc rehab staffs, do they have a 
formal relationship with the state adjutant generals, or how does that 
work?
    Ms. Caden. We have -- it varies from office to office.  About 45 
of our offices have formal agreements with the state programs, working 
with the DVOPs and the LVERs. What I hope to get out of this next 
generation of the Memorandum of Understanding with DOL is that we�ll 
have that everywhere, and that we will strength that relationship and 
 basically make it a requirement.  Pretty much it�s been left up to the
 states.
    Mr. Boozman. Mr. McLendon, do you think that the level of data 
collected by all of the VBAs business lines is sufficient to provide 
rigorous program analysis and evaluation?
    Mr. McLendon. I think the simple answer to that question is no.  
    Historically, if you go back and look at the various reports that our 
friends from the General Accounting Office have written about VA and a 
lot of internal reports from VA that one of the issues that�s always 
been a challenge for us has been data.
    And there�s been quite a bit of work that has been done in the 
last couple of years to try to begin to address that program.  In VBA, 
they�ve invested quite a bit in IT modernization to work on those 
issues.  VHA of course has got VISTA and a lot of systems.  But, 
Mr. Chairman, that remains one of our challenges.
    Mr. Boozman. Ms. Herseth?
    Ms. Herseth. I�ll just echo the appreciation that the Chairman 
expressed for the work that you do on behalf of our veterans and their 
 families and with all of the folks that work with you out of the 
regional offices around the country.
    I�ll just start out with -- I�ve got a couple of questions, but 
I�ll just start out with the one that I posed a little bit earlier to 
the prior panel, and that is, Ms. Caden, can you say today, and are 
you in a position, the folks that you work with there at the VA, if 
the Memorandum of Understanding with the DoD was sort of in front of 
us today, is the VA ready to sign it?
    Ms. Caden. I checked on that before I came here today, and my 
 understanding, it is ready to be signed.  I think that we have cleared
 the hurdles with both DoD and at VA, our own, and I�m told it should 
be signed any time.
    Ms. Herseth. Okay.  If you could, just as soon as it is, or if you 
have any updated information to share with the Chairman and other 
members --
    Ms. Caden. Sure.  Absolutely.
    Ms. Herseth. -- of the committee, I�d appreciate that.
    Ms. Caden. Absolutely.
    Ms. Herseth. And could you discuss the staffing, both short-term 
and long-term staffing plans?  Because I�m a little concerned, and I 
think part of what we discussed with the first panel was this need for 
follow-up with newly injured servicemembers.
    And part of the discussions we had in a very productive way with the
 Chairman of the full committee and with Mr. Boozman and myself about 
the full-time employees to make sure that we were able to request 
retaining the 14 or so that had been proposed to be cut out of the 
 administration�s proposed budget.
    But I�m concerned that, you know, that we have the adequate 
resources so as not to hinder the full implementation of the Task 
Force�s recommendations, and to particularly address this issue of 
follow-up in the outreach in addition to administering the programs, 
 particularly in light of plans set forth five, six years ago for 
attrition of those who may retire and the need now to pass along that 
wisdom and institutional expertise to new full-time employees to take 
over the program.
    Ms. Caden. Okay.  A couple different things I can say in there.  
First of all, I would like to address the follow-up issue.
    We recently put in place a requirement -- we did it in March in a 
letter that went out to all the field stations, and specifically for 
VR&E requiring follow-up with OIF/OEF individuals who have at the point 
we do that initial contact with them, if they decline VR&E services 
because of their medical issues, it�s not the right point in their 
life to start the program, that we are requiring follow-up within one 
year.
    And it can happen earlier, it could happen at several times during 
that year, but we are requiring our VR&E staff in the field to perform 
that follow-up, because we don�t want to lose anybody, and we do want 
them to remember that the program is there for them when they�re able 
to take advantage of it.
    As far as staffing goes, we�re not losing any. We�re not gaining a 
lot right now, but we think we�re in a good place.  As we roll out the 
5-Track model and we see how that works, we will be probably looking to 
 leverage maybe some of the Task Force recommendations for staffing.  
They recommended an increase of about 200 FTE for the VR&E program.
    They recommended an increase in central office staff which I was 
able to increase my staff by about 10 to get us the expertise we needed 
in those areas I mentioned of independent living, outreach, data 
analysis and that type of thing, and employment of course.
    But I think the most important area we want to look at is that 
employment coordinator position that we are going to be testing that 
will have to work with DOL, with the LEVRs and the DVOPs, and we�ll 
see how that rolls out and how successful it is.  And at that point, 
we�ll see what we need in that area.
    Ms. Herseth. I appreciate that.  I was hoping maybe we�ll still see 
some sort of increase, but given those recommendations, and as you�ve 
heard from some of the other questions posed, particularly with the 
National Guard and Reserve, I think there are just some unique issues 
there as it relates to outreach and administering the programs and 
when that follow-up occurs.
    And I appreciate the fact that there is a requirement now just 
to -- there�s just so much going on with these folks.
    Ms. Caden. Absolutely.
    Ms. Herseth. That it�s important to let them ease into things and 
 reevaluate what their needs and what they might want to take advantage
 of with the programs available.
    And if I might, I think the time is running short, but one last 
question.  You made reference to the independent living program as it 
relates to some of the companies that have approached you and that 
you�re in conversations with. How does the independent living program 
fit into VR&E�s future plans beyond what you�ve discussed?  And do you 
support an increase to the annual cap on participants?
    Ms. Caden. We�re looking at the annual cap all the time, and we 
haven�t gone over it, and sometimes that�s because we�re very careful 
towards the end of a fiscal year, we will be watching it.
    And I think this year will be very important to watch, because 
with more people coming back from OIF/OEF, there may be a need_and I 
would like to be able to get back to you on that as we watch our 
numbers and look at where we�re going.  And the independent living is 
a very important part of our program.  It�s one of the five tracks.  
And we�re trying to concentrate on it, but we also want to keep 
employment as a goal.  And so we really want to work and see how that 
works out.  That�s why this conversation we had yesterday on a call 
center was quite interesting.
    Ms. Herseth. Thank you very much.
    Mr. Boozman. Mr. Evans?
    Mr. Evans. No questions.
    Mr. Boozman. Let me follow up a little bit, and Ms. Herseth, if 
she�d like to follow up also it would be great.  The Task Force 
recommended that the VBA field offices revise the resource allocation 
model to base the regional offices� funding for contract services on 
local estimates of the volume and types of services and the actual 
cost of the services rather than the RO�s percentage of the national 
workload.
    I guess my question is, can you tell us, how you allocate things 
now, so we can better understand?  And then, two, if you�ve 
implemented this change, and if so, great.  You know, if you haven�t, 
what�s the deal, or?
    Ms. Caden. Okay.  I�m probably going to turn over this to 
Dr. Braun, because he�s been on the team that�s worked on the resource 
 allocation.  But just very quickly, it�s a joint effort done -- my 
staff, central office staff, works with our office of field operations.
  And, Jerry, do you want to talk a little bit about the process?
    Mr. Braun. There�s two VR&E field officers, field managers that are 
on the resource allocation management team, as well as the folks
 representative from central office.
    Currently, that�s -- the percentage of workload is a prime indicator 
in terms of what resources are allocated both in the contract arena as 
well as in the FTE arena.  Among the factors we look at are pending 
workload as well as outcome-type factors.
    The concept of inviting -- and as Mrs. Caden referenced, this team 
meets once a year prior to the fiscal year, the new fiscal year, the 
concept of inviting the input of the field in terms of what they spent 
last year, what they expect to spend in the upcoming years, and what 
their special needs are, will be incorporated into our -- this year�s 
summer meeting on the matter.
    Ms. Caden. Just to follow up, we do look at what they spent in the 
past year.  This year we�ll probably delve into that in some more detail.
    Mr. Boozman. Ms. Herseth?  I want to thank all of the witnesses who 
came here today.  We�ve heard about some really good successes and some 
 challenges facing the voc rehab and employment program and suggestions 
on how the program can improve.
    I think we can note with pleasure the examples of VR&E, VETS 
cooperation.  I would offer that the GAO�s comments and continual 
findings concerning the VR&E�s inability to put disabled vets in jobs 
and the lack of the necessary staff skills to meet that goal is somewhat 
 troubling.  And while progress is being made, I hope that the VA will 
 accelerate its efforts to achieve a more transparent relationship with 
VETS.
    I don�t think anyone expects VA Voc Rehab to replicate the services 
 offered by the Department of Labor�s VETS.  Rather, it�s common sense 
that VR&E develop a close working relationship with the VETS national 
staff and the regional office staff blends their operations with the 
DVOPs and LVERs.
    I look forward to significant progress in the future.  And we 
would appreciate you mentioned the Memorandum of Understanding.  If you 
could send that over.  And I feel like we need to have a signing, where 
we can all get together and you can give us each a pen.  In fact, you 
ought to do that, is sign a little bit and just sign with -- so we can 
all have a pen that you do it with.
    So, we want to assure you that we�re going to press the Department 
of Labor to meet its obligations in its regard also.
    I want to thank the testimony of Mr. Forney and especially in the 
sense of coming over.  I want to thank him for his service.  And then 
also I�d like say that any member of the committee also has the 
opportunity to submit written statements.
    Ms. Herseth?
    Ms. Herseth. Again, thank you, all of you for being here, those 
that testified on today�s panels and those that are here as advocates 
for and concerned about our nation�s veterans.  I think as it relates 
to the fact that this is our first Subcommittee hearing with this new 
 committee is an important one to ask these types of questions to see 
what the progress has been in light of the Task Force recommendations, 
in light of the need for making limited resources go as far as we can 
make them go.
    And it�s the coordination and communication between agencies like 
the Department of Labor and like the Department of Defense that are 
going to help us in that respect, and so I appreciate getting some 
updated information on those two areas in particular.
    But thank you for your work.  We�ll look forward to working with 
you in the future.  And in the questions that we all posed today, as 
you come across information that you think may be helpful to us or to 
our staffs, if you could forward that along to maintain kind of this 
ongoing dialogue on particularly the primary issues we focused on today 
in the VR&E program.
    Thank you very much.  Thank you, Mr. Chairman.
    Mr. Boozman. Thank you.  The meeting is adjourned.
 
    [Whereupon, at 3:20 p.m., the Subcommittee was adjourned.]
</pre></body></html>
